?

(

J

No.

20°5l
IN THE
SUPREME COURT OF THE UNITEBJEJAines

S

*

&

£

S
'6

I
Aainl ( PQrJrthQ 2
flMrgg
(Your Name)

— PETITIONER

vs.

iJn'iUJ 5>W& bf Am£n Cfl

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

PILED
MAY 05 2020

'The Inf4b OirCUtl dnurf af Appeals
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

fimlrVei Harold

m

(Your Name)

IWi FM <1(0
(Address)

tftmkisiIlf }Ty "Jl3V 1
(City, State, Zip Code)

(Phone Number)

QUESTIONS PRESENTED FOR REVIEW
CIRCUIT CONFLICT(split)rWHETHER a district court in a Section
2255 proceeding has the authority to raise a collateral-appeal
waiver defense sua sponte prior to,or without/informing the
parties of the court's intent?
WHETHER a collateral-appeal! waiver provision in a plea
agreement may be nullified wliere in a Proceeding the district
court allows for what the waiver prevents and where the government
(hereinafter "govt(s)")fails to object to the court's express
instruction in the same proceeding?.
WHETHER under the present case circumstances the issue of
waiver is debatable in light of this Court's ruling in the abovepresented questions thus entitling the Petitioner to a Certificate
Of Appealability("COA")

LIST OF PARTIES

[yfAIl parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

♦ ficiLi J tardtona-fy

am! rei ux

.Urn 11 pel Sd-algr t £/Ivnlrtfi Q Uo «

^
| % t U.
Pouf'l- l~Qr 4he. SauiliPm
of Te!)CCi£. 3iidcjfv)en4 tn-l&cpd f-eJoruary *11 Zol Q.

* Untied Siale/ tf /iMnaa u. Qctlnt/CarJbno-'llam 'iret,
Jfl. 19 -HoMZ, UlS. dourl'Appeals,
enlerecf Pefcruary IZiZozO,

C\Va/i A TudcfMMr

,

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE

3
H

REASONS FOR GRANTING THE WRIT

S-»2

CONCLUSION

13

INDEX TO APPENDICES
APPENDIX A APPENDIX B
APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

-

fiffh (}itcutl OoU(\bf Appeals dp mldn
fourii 0f>mt6n av\d Ofcl&f

idu ion

TABLE OF AUTHORITIES CITED
CASES

Doy v. ncftfaflfcugh slh US !Sg
Ctr«£nlftM v. U^vi'Vftcl $Jhxtasi554 US 239 ________ _
Closure v.l)n\W S4erlls,s4b UI3TS'_________
VkIgccI m. M\i\prcl, 131 S.GJk \U\o____________
LinUed 5-VaUi v.Del Tovt»-Atajattcke,4^4 T.3d) "I'll
liu/qess v. Unled sYcAes. 814 K3di HQ2.______

liniWI SYaks \i.Galv/ertay,3r7 F.3d Hob______
m. linked Scales,111 .SCl. 2fo(ol______
Frej^laq%/■ (WimviSionfif> ill 3cQA-.2(o3\______
Missouri v.Tr^e, 132 S.OY,
___________
^lackledQC. \j * ^€ro| ,411 US. 21 _____________
LatWu, C^oo^er, 131 S,c4, )3"IL_______
.
5\aeWx/‘ McIWd> S2Q US.413____________

PAGE NUMBER
___ 5" , & , !2.

___S, U I 12
5
S', 0 ,12
S,G>, 1

1
*

°l
°I,10
10
10,1)
ll

HVv\ta~Elv.£odu«Jl.S3l ill 322_________

H

V-ecl. . G.n<h. Vfici, 11 (C-YHi____________
Fed. ?.(W W. UCClCVS")__________
2 8 U3CA § 22SST QOCO (X)___________
1* U$QA§ 22SS Cuta
___________

8

STATUTES AND RULES

OTHER

°l
. SWEMeWT Of CASE

(tokl), 7

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[vj For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

A

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[vf is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] Mis been designated for publication but is not yet reported; or,
[Vis unpublished.
[ ] For cases from state courts:

Ml A

The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was
daxj
FeWvxnry *2-0^0.
[v^No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:

oA

The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

cic<2_
^xwvcted ^ <

Wo Wed . Q_\WV>'
Ccorvee .

3

"Vb ArWem CiKH.

STATEMENT OF THE CASE
On August 11,2008,the Petitioner entered a plea on the advice
of counsel for the offense of Conspiracy to Kidnap and Kill in
a Foreign Country,namely Mexico.
Subsequently,on March 5,2009,the court sentenced the Petiti
oner to a LIFE sentence in the Bureau Of Prisons for a crime the
Petitioner committed when he was arguably a youth.
Because the Petitioner raised allegations against both coun
sel s--deflense and govt--to which defense counsel confirmed while
the £'ovt failed to refute,the court gave the Petitioner permission
to appeal] on IATC grounds.The govt did not raise any objections.
Around June 2009,as instructed the Petitioner perfected an
appeal,with the assistance of court-appointed counsel,raising
Rule 11 errors and IATC Maims .However, the allpellate court affir­
med and did not consider the IATC claims because the record was
"not suf f licient". In this appeal, appellate counsel failed to., raise
any sentencing errors which"were apparent by reference to the
USSGs and the record.Additionally,the govt did not raise any
appeal-wailler defense in it's brief,even where appellate counsel
mentioned it in his brief as retaittal.
When the govt created impediment was removed,on January 29,
2019, the Petitionert brought a 2L255 Motion in the district court
challenging his conviction and sentence on several IATC and
IAAC grounds.
On February 7,2029,without reaching the merits of the case,
without following the principle o^ p&rty presentation,amd without
notifying the parties of the court's intent,the court sua sponte
dismissed the motion on two grounds:l)T$meliness and 2)appeal-

waiver bar.
On April 5,2019,timely applying for a COA and in pertinent
part as it pertains to waiver (the aptiellatle court did not consid
er the timeliness issue as it resolved it on waiver)the Petitioner
argued how reasonable jurists could debate that a)the court was
wflong to raise the waiver defense sua sponte because upon party
presentation the Petitioner could effectively argue that the govt
waived the defense when it failed to raise it on the Petitioner's
direct ajjii»eal, thereby resolving the motion in a different manner;
b)the court nullified the Waiver provision at sentencing stage
when,on the record,the court informed the Petitioner that he could
appeal and where the govt failed to object;c)the waiver was entered
involuntary,unknowingly and unintelligently due to a fear to a non­
existing penalty .Therefore,.the Petitioner argued,it is atleast
debatabUe tha-f^ the appeal-waiver is enforceable1.1
On February 12,2020, the appellate court den!?ied a COA stating
that the Petitioner's arguments did not meet the COA standards.
The Petitioner

now timely with this Court seeking review.

4

REASON FOR GRANTING THE WRIT
A.THE FIRST QUESTION IMPLICATES THE PARTY PRESENTATION RULE
In Day v McDonough,547 US 198,202(2006)this court stated that it would be an abuse of discretion if a district court overrides a party's wishes in
raising or waiving a defense.That should a court ignore the same it would
violate"the principle of party presentation basic to our adversary system".
Because,as stated later in Greenlaw v United States,554 US 235=,243(2008),it is
the "parties[who] frame the issues for decision and assign to courts the role
of neutral arbiter of matters the parties present".And "our adversary system
is designed around the premise that the parties know what is best for them,and
are responsible for advancing the facts and arguments entitling them to relief
id.at 244(quoting Castro v United States,540 US 375,386(2003))
Consistent with the "party presentation rule" this court again in Wood v
Milyard,132 S.Ct.1826(2012) restated that a "court does not have carte blanche
to depart from the principle of party presentation basic to our adversary system"id.at 1833(citation omitted).The court further stated that only where the
state(or here the govt)"does not'strategically withhold the • • • defense or
cho[o]se to relinquish it',and where the petitioner is accorded a fair oppor­
tunity to present his position,may a district court consider the defense on its own initiative".id
In the case at bar,there was zero Party presentation;the lower court
did not inform the parties of its intent to raise the waiver defense and did n~
ot afford the petitioner the opportunity to present his position.This is
because of the Fifth Circuit Court's holding in United States v Del ToroAlejandre,489 F3d J;21(5th Cir.2007)which holds that a district court can
raise the waiver defense sua sponte irrespective of the govts wishes,inconsis­
tent with this court's 'precedents cited above.This Holding also conflicts with
the Eleventh Circuit's Holding(Part B below).Had the lower court afforded the

5

Petitioner the opportunity to present his position he could have argued that
the govt waived the issue for failing to invoke the defense on direct appeal
and tHe govt would have had to concede to the same.See Del Toro-Alejandre,at
722,where the govt concedes that it waives the defense when it fails to raise
it in its brief.lt would therefore be an abuse of discretion should the court
choose to rule otherwise.
However,because of the Fifth Circuit's holding in Del-Toro Alejandre.the
lower court chose to invoke the waiver defense sua sponte irrespective of the
parties position and this violation of the party presentation rule passed
unabated through the circuit court.lt is;therefore,this court'd duty to exerci­
se its supervisory power to correct this error of importance and not allow a
lower court to depart from the course of usual procedures set in place by this
court's precedents.
B.ANSWERING THE FIRST QUESTION WOULD RESOLVE A CIRCUIT CONFLICT BETWEEN THE
FIFTH AND ELEVENTH CIRCUIT COURTS AND WOULD HARMONIZE ALL LOWER COURTS IN
THE SUBJECT MATTER
In United States v Del toro-Aleiandre.489 F3d 721,723(5th Cir.2007) the
court held that a district court can dismiss a 2255 motion pursuant to a waiver
provision sua sjfonte where"the motion and the ffries and records of the case
conclusively show that the prisoner is entitled to no relief".The court further
ruled that a lower court could do the same irrespective of the govts wishes
i.e.whether the govt would insist that the waiver be enforced,in contravention
of the party presentation rule and inconsistent with Day,Greenlaw,and Wood,
sujSra.
In addition to sanctioning and causing lower courts—like at bar—to
dismiss the motions without any regards to what the parties may present,or
their position in the matter,as stated above,this holding concomitantly leaves
lower courts to interpret "the motion and the files and records" in however si­
lent fashion a lower court chooses.For example,in the case at bar is it part of
(O

the "motion","files",or "records" the fact that at sentencing the govt did not
object to the court's express instruction to the Petitioner informing him that
he could a (peal?1 If so,then the Petitioner can make a case that the govt
waived the defense tKen and there in failing to object.Atleast it's debatable.
Next,is the appellate brief part of the same "motion","files",or"records"(see
note l)?If so,then the Petitioner can effectively argue that the govt waived
the defense because it failed to raise it in its brief when the Petitioner
directly appealed his conviction.See Del Toro-Alejandre,supra at 722(govt
waives the defense when"it fails to invoke it in its brief").
That's why 2255 Rules are in place.Because when a court follows them it
allows for two things to occur l)party presentation and 2)introducing relevant
documents and making things part of the''record'',"files",or''motion'' .Del toroAlejandre denies that because it allows lower courts—like Here—to raise the
waiver defense sua sponte without informing the parties whatsoever.Lastly,the
circuit court aligned the waiver defense with the failure to exhaust defenseid.
at 722-23,basically concluding that where it is apparent on the face of the
record,a lower court can enforce the "bargained for waiver" sua sponte.
Au contraire mons freire says the Eleventh Circuit Court in Burgess v United States,874 F3d 1292(llth Cir.2017).
In holding that a lower court could not enforce a collateral-appeal
waiver bar sua sfjionte without party notification,the Burgess court distinguis1 This can only happen in 2 instances vhan l)the court follows Section 2255 Rules 4~5(c)vhicln
requires the govt to fimidi the relevant documents or2)an AFFLUENT prisoner is provided with the
relevant documents ty his retained counsel earlier vhen represented ty the attorney .Otherwise any
irdigant pro se prisoner cannot neks anything part of the record should the lover court deviate
firm the Section 2255 Rules or tfte usual course of procedures

7

bed "appeal-waiver defenses"from other defenses like exhaustion,retroactivity,
timeliness and procedural bars and further elaborated on the differences id,, at
1299-1300.Additionally,the circuit court gave two other reasons why it is impr­
oper to enforce a waiver defense sua sponte 1)"party presentation system
requires the parties to invoke their own claims and defenses "while assigning
courts as neutral arbiters and 2)the integrity of the judicial process is com­
promised when a court invokes a "government's benefit 0 conferred by [an]
,,agreement arising from [plea] negotiations",something prohibited pretrial by
the Fed.R.Crim.Proc.11(c)(1), thus making "the neutral arbiter concern particu­
larly afftt".id.
This holding is instructive to lower courts because it encourages lower
courts to follow with the party presentation rule and developing the record for review,in the process allowing the Fed.R.Civ.Proc. and the 2255 Rules to
work in tandem.
Ultimately,both holdings conflict with each other in several ways.For
example,l)whetHer to follow with Section 2255 Rules and the Fed.R.Civ.Proc.
in informing the parties of the court's prospective action ;thereby allowing
for party presentation; 2)classification of the collateral-appeal waiver def­
ense; Burgess distinguishes it from other defenses as mentioned above while
Del Toro-Alejandre does not;and 3)sua s'fcnte enforcing the waiver defense.
This conflict creates disharmony among lower courts and cases are decided in
conflicting ways.
C.THE SECOND QUESTION INVOLVES MATTERS OF RECURRING IMPORTANCE FOR THE EFFEC­
TIVE ADMINISTRATION OF JUSTICE IN PLEA BARGAIN CASES
"One of the most familiar procedural rubrics in the administration of
justice is the rule that tHe failure of a litigant to assert a right in the
trial court likely will result in its forfeature"United States v Calverley,
37 F3d 160,162 (5thCir.1994)."For criminal proceedings in the federal courts,

8

this principle is embodied in Federal Rule of Criminal Procedure 51,which
requires 'a party,at the time the ruling or order of the [trial] court is made
or sought,[to] mak[e] known to the court the action which that party desires
the court to take or that party's objection to the action of the court and the
grounds therefor'".Peretz v United States,111 S Ct 2661,2678 (1991)(SCALIA,J.,
dissenting).This principle,which is rooted in fairness,the public interest in
bringing litigation to an end,and judicial economy,is universally known as basic:
"a litigant must raise all issues and objections at trial".Freytag v Commission­
er, 111 S Ct 2631,2646-4$ (1991)(SCALIA,J.,concurring in judgment).
Similarly,when it comes to plea bargains in criminal cases,the same
foundations have equal operative force.That is that when parties agree to a plea
bargain,it is rooted in fairness,the saving of scarce judicial (or prosecutor)
resources and with the wish to bring litigation to an end.Ordinarily allowing
only for appeal to issues not included in the agreement.
However,what happens when a claim arises after the conviction is entered
and it is made known to the court and,thereafter,the court allows for appeal
on related IATC grounds while at the same time the govt fails to object to the
court's error or judicial disapproval of a specific plea bargain provision,
namely appeal waiver?Is the specific appeal waiver provision—whether through
judicial error or disapproval—effectively nullified?Does the district court
even have discretion to eliminate a specific provision in a plea bargain
agreement as opposed to the overall agreement?Cf Fed.R.Crim.Proc. 11(C) (3
with Missouri v Frye,132 S Ct 1399,1410(2012)(recognizing the district court's
wide discretion).In addition to the court's express instruction allowing for
appeal,is the waiver provision nullified as the govt fails to object,in light
of the above-cited authorities?This is the precise situation at bar:
When being sentenced,the Petitioner made clear to the court the reason
why he entered a plea months previously.And that was because his attorney

9

coerced him by informing him that if he did not plea the govt would supersede
the indictment calling for more seriious penalties namely,life or the death
chamber.The govt stood silent without refuting the allegations and the Peti­
tioner's counsel confirmed the same.To an experienced judge,when the govt could,
at the outset^charge the case calling for those more serious penalties but ele­
cted not to do so,the govt is now precluded from further doing so just because
a defendant persists in exercising Was constitutional rights.See Blackledge v
Perry,417 US 21 (1974).Here,the court stated clearly that "the government could
have pursued the death penalty.And they chose not to do so."Thus there was an
apparent misapprehension of the law on the Petitioner's part and as a resylt
of counsel's misadvice or misinforming the Petitioner.Stated differently,
counsel is expected to know tKe law and accurately explain it to his client.
Here,counsel should have informed the Petitioner that he could proceed forth to
a trfjal by jury without fears because the govt could,but did not,at the outset
charge the case with the more serious penalties.
Henceforth now is it in the district court's discretion to allow for
appeal to this issue 'having arisen after conviction-even when the waiver of
appeal is presumptively bargained for?The court made clear that the Petitioner
could appeal on IATC claims and the govt did not object on grounds that the
waiver of appeal was bargained for.
In short,claims do arise after a conviction is entered and this Court
recognizes that.See Frye, at 1405.And here,a claim arose after the Petitioner's
pLea was entered.With this in mind,this Court is presented with the opportun­
ity to answer this question which has recurring importance for the effective
administration of justice because "[t]be plea bargain process is a subject
worthy of regulation,since it is the means by which most criminal convictions
are obtained",Frye,atil413-14 (2012)(SCALIA,J.,dissenting)and because today's
federal system has become "a system of £jleas not a system of trials".Lafler

10

v Cooper.132 S Ct 1376,1388 (2012).Ibis Court is poised to answer this question.
D.THE FIFTH CIRCUIT'S DECISION AFFIRMING THE LOWER COURT'S RULING HAS SO FAR
DEPARTED,AND SANCTIONED LOWER COURTS TO DEPART,FROM THE USUAL COURSE OF
PROCEDURES SET-FORTH BY THIS COURT'S PRECEDENTS.
At bar,the fifth circuit court did not give any explanation as to how or
why the petitioner does not meet the COA standards set-forth by this Court's
precedents in Slack v McDaniel.529 US 473 (2000) and Miller-El v Cockrell,
537 US 322 (2003) ^See Appendix A ).
This is presumably because of the circuit court's Del Toro-Alejandre
case cited above,which the court relies on to state that the Petitioner's
arguments do not meet the COA "debatability" showing.However,what is contro­
lling is this Court's established Precedents,In Slack v McDaniel.supra.this
Court only requires the Petitioners to stow debatability into a lower court's
ruling or the procedural way by which the case was decidedI'id^at 483,484.
That is "[t]hat jurist of reason could debate whether (or for that matter
agree that)the [motion] should have been resolved in a different manner

• ’•

•

'id.

Or simply put,said precedents only require a reasonable disagreement into the
court's ruling or another way how to solve the matter.To that end the Petitioner
argued:
"A jur'lst of- reason could debate whether Cardona moved forward volun­
tarily,^ light of the fact that he stated clearly that he pled under wfet may
have been a false apprehension to a more severe penalty.[]Immediately after
Cardona stated that he did not know that he was waiving his rPght to appeal[]
and the government stating that it would proceed to a trial by jury,Cardona
decided to move forward.Clearly,a jur'lst of reason could debate,Cardona feared
something and that something may be that life or death penalty^eath a legal
impossibility if the government could,but didn't,at the outset charge as such.
This misapprehension renders such decision involuntary.
Second,a jurist of reason could debate whether the court essentially

eliminated the waiver provision,at sentencing,when the court clearly stated that
Cardona could appeal,specifically co Ineffective Assistance of Counsel claims,
claims that are,in usual and preferred practice,addressed on a§2255 proceedings,
not direct appeal.[]
Third,Cardena did appeal.Cardona dfld raise this IAC issue on appeal,but,
it was not addressed.A jurist of reason could debate that these claims should
be addressed on their merits—should Cardona prevail on his S[tatute]o[f]
L[imitations] arguments above—because on appeal the government did not raise
a waiver bar and appellate counsel—if shown—was ineffective.Stated different­
ly,because the government didnot raise a waiver bar and but for appellate cou­
nsel's ineffectiveness there is a reasonable probability Cardona would have
prevailed.
In light of the fact that the government did not raise a waiver defense
on appeal,a jurist of reason could debate that the district court was wrong in
sua sponte raising a waiver bar because upon referring the matter to a magis­
trate Cardona could argue that the government is judicially estopped because,on
ap'^eal the government did not raise it[]".
The Petitioner Believes that these arguments are legitimate because a
jurist of reason could not only disagree with the court's waiver ruling but also
to how a reasonable jurist would resolve the matter differently i.e.referring
the matter to a magistrate where party presentation would open the way for the
Petitiomer to effectively argue (as stated above) that the govt waived the waiver
defense for failing to raise it on appeal and that the court further would abuse
its discretion ruling otherwise,in light of Day.Wood.and Greenlaw.supra(Part
A,above).
This Court should therefore exercise its supervisory power to correct
the lower court's error in departing from the usual course of procedures.

Iz

«
«

CONCLUSION

The petition for a writ of certiorari should be granted.

13

